THE SUPREME COURT OF WASHINGTON
STATE OF WASHINGTON,
Respondent,
v.
JEFFREY PAUL GIBLIN,
Petitioner.

)
)
)
)
)
)
)
)
)
)
)
)

No. 97937-5
ORDER
Court of Appeals
No. 36645-6-1II

Department I of the Court, composed of Chief Justice Stephens and Justices Johnson,
Owens, Gonzalez, and Yu, considered at its March 31,2020, Motion Calendar whether review
should be granted pursuant to RAP 13.4(b) and unanimously agreed that the following order be
entered.
IT IS ORDERED:
That the petition for review is denied.
DATED at Olympia, Washington, this 1st day of April, 2020.
For the Court

7?

CHIEF JUSTICE

fur

FILED
NOVEMBER 7, 2019
In the Office of the Clerk of Court
WA State Court of Appeals, Division III

IN THE COURT OF APPEALS OF THE STATE OF WASHINGTON
DIVISION THREE
STATE OF WASHINGTON,
Respondent,
v.
JEFFREY PAUL GIBLIN,
Appellant.

)
)
)
)
)
)
)
)

No. 36645-6-III

UNPUBLISHED OPINION

)

SlDDOWAY, J. — In the concluding act of a road rage incident, a BMW sedan
driven by Jeffrey Giblin, traveling in reverse, slammed into Abel Loredo and the parked
Tesla in front of which Abel1 was standing. Abel’s leg was crushed and required
amputation. The principal dispute in Mr. Giblin’s trial for first degree assault was
whether he assaulted Abel with the intent to inflict great bodily harm. Mr. Giblin
claimed that putting his car in reverse and striking Abel was an accident.
We find no error or abuse of discretion by the trial court in admitting a lay opinion
from one of the State’s witnesses at the same time it excluded a lay opinion from a
witness offered by the defense. For that reason, and because matters raised by Mr. Giblin

1

Abel and his brother Brian Loredo were both present. We generally refer to the
brothers by their first names for clarity, intending no disrespect.

No. 36645-6-III
State v. Giblin

in a pro se statement of additional grounds for review lack merit or require evidence
outside the record, we affirm.
FACTS AND PROCEDURAL BACKGROUND
On an afternoon in early September 2016, Brian Loredo, accompanied by his
brother Abel, was driving his Tesla on Canyon Road in the Puyallup area, destined for
north Tacoma. Also traveling on Canyon Road was the defendant, Jeffrey Giblin, driving
a BMW sedan, accompanied by his 15-year-old son. Both drivers entered the on-ramp to
State Route (SR) 512 at the same time.
Brian would later testify that since the cars were side by side, he sped up as part of
the merging process. Mr. Giblin claimed that the Tesla “zoomed forward[,] cutting us
off.” Report of Proceedings (RP)2 at 627. It is undisputed that Mr. Giblin responded by
honking; he would later characterize his honking as “let[ting] them know I was there.
Cautionary.” Id.
Brian and the Giblins agree that middle fingers were raised, although Brian and
the Giblins disagree about who flipped off who, or did so first. The Loredos’ and
Giblins’ versions about what took place in the time it took for the cars to travel on
SR 512 to Interstate 5 (1-5), and then to 1-5’s 38th Street exit, diverge widely. While their

2 “RP” citations are to the report of proceedings that begins with proceedings on
January 9, 2018, and includes portions of the trial relevant to the appeal.
2

No. 36645-6-III
State v. Giblin

competing versions of those events were relevant at trial, they are immaterial to the issues
on appeal.
Brian slowed down to leave 1-5 at the 38th Street exit and it is undisputed that as
he did, Mr. Giblin pulled in front of him and both Mr. Giblin and Brian pulled over and
stopped. Brian and Mr. Giblin stepped out of their cars and argued. There was a short
physical altercation, after which Mr. Giblin got back into his BMW and Brian turned
back toward his own car. As Brian returned to the Tesla, Abel stepped out to speak to
him, and the two stood in front of the car, where Abel asked Brian if he was okay.
Speaking of Mr. Giblin, Brian said something like, “Dude’s tripping. . . . He’s crazy,”
and suggested that they wait for Mr. Giblin to drive off. RP at 256.
According to Brian and Abel, as they waited for the Giblin’s to leave, Mr. Giblin
revved his engine and then suddenly sped in reverse toward the two men. Brian was able
to jump sideways, out of the way, but Abel, who was standing near the center of the
Tesla, could only leap up in an effort to avoid being hit. Unable to leap high enough, his
leg was crushed between the BMW and the front bumper of the Tesla. No sooner had
Mr. Giblin struck Abel and the Tesla than he put the BMW into forward gear and drove
off.
A passing motorist, Kome Eteuati, saw the collision and Mr. Giblins immediate
departure and decided to follow the BMW to “get some justice for the guy that. . . [got]
hit.” RP at 122. He honked his horn in an effort to get the BMW to stop. When that did
3

No. 36645-6-III
State v. Giblin

not work, he used his cell phone to take pictures and a short video of the fleeing BMW
and its license plate. He returned to the scene of the collision, where Abel had used
Brian’s belt as a tourniquet to stop the bleeding and 911 had been called. Abel was taken
to the hospital where his leg was amputated below the knee.
Mr. Eteuati’s video was relied on by the Washington State Patrol to publicize its
search for the BMW and its driver. Four days after the accident, Mr. Giblin contacted
police. He was charged with first degree assault and failure to remain at the scene of an
accident involving an injury.
At Mr. Giblin’s jury trial, the first three witnesses called by the State were Mr.
Eteuati and two other individuals who had been traveling in the vicinity of the BMW and
the Tesla for 10 or 15 minutes leading up to the collision. Their testimony was largely
damaging to the defense.
During a break following most of Mr. Eteuati’s direct testimony, the State moved
to prevent cross-examination about a statement Mr. Eteuati volunteered during a
telephonic interview witli a detective. Referring to a transcript of the taped interview, the
prosecutor explained:
[Mr. Eteuati] volunteered . . . that “I honestly believe, sir, his intention was
to hit the vehicle and drive off. But didn’t realize the guy was between
both cars, you know. It might have been an accident, but it was still like
wrong, man.”
The detective responded with, “Right. So you believe his intention
was to hit the car?”

4

No. 36645-6-III
State v. Giblin

[Mr. Eteuati’s] Answer: “Correct. Yes, I don’t think his intention
was to crush the guy, you know.”
RP at 131-32.
The prosecutor told the court that later in the detective’s interview of Mr. Eteuati,
the detective asked, “Could you see if the driver of the first car, the BMW, was looking
when he backed up at all or could you tell?” and Mr. Eteuati’s answer as recorded in the
transcript is “Honestly, I don’t—I don’t think I was. I mean, honestly, sir, I don’t think
he . . . .” RP at 132. The prosecutor told the court that when interviewed by the defense,
Mr. Eteuati indicated he did not see Mr. Giblin look back while driving in reverse but Mr.
Giblin could have been looking in one of his mirrors. Summarizing, the prosecutor said,
“I believe that the witness doesn’t know. In other words, conceivably it could have been
happening, but he doesn’t know.” Id.
The prosecutor told the court that when she asked Mr. Eteuati for the basis of his
belief that Mr. Giblin did not intend to hit Abel, “[H]e didn’t see anything.” RP at 133.
She said she was clear with Mr. Eteuati that she needed to know if his statement was
“based upon something you saw and observed,” but “he has no idea. He simply has no
idea.” Id. The prosecutor posited that Mr. Eteuati’s belief could come “frankly from his
desire or wish that that would be the case.” RP at 132.
When defense counsel responded, she did not dispute the prosecutor’s
characterization of Mr. Eteuati’s statements when interviewed. She argued, however,

5

i
!

No. 36645-6-III
State v. Gib lin
i

!

that Mr. Eteuati’s statements “go[ ] to his state of mind,” and since he made “fairly clear
statements” about what he “honestly believ[ed]” “that’s monumental to the issues in this
case and Mr. Giblin’s defense and his right to a fair trial.” RP at 134.

i

i

The trial court granted the motion to exclude Mr. Eteuati’s statements about Mr.
i

'Giblin’s intent, explaining, “Not only does he lack any personal knowledge that could
inform him of that, I also think that would be an improper comment on the defendant’s

[

guilt and it invades the province of the jury.” RP at 135. The court told the parties it
would allow the defense to inquire whether Mr. Eteuati knew if Mr. Giblin looked in his
mirror or saw anything behind the BMW.
When Brian Loredo later testified, the State touched on the defense theory that Mr.
i
I

Giblin put his BMW in reverse accidentally, asking the following questions and getting

!

the following responses:
[Prosecutor:] Was there anything about the way or the manner in which the
car backed up that gave you any concern for it being out of control or inadvertent
or—
[Brian:] Well, it just kept going.
[Prosecutor:] What do you mean?
[Brian:] Um, well, you know, if you—I guess if somebody—to me there
was no question as far as the intent.
[Prosecutor]: Why do you say that?
[Defense Counsel]: I’m going to object, Your Honor. If s a statement on
the ultimate issue.
[Prosecutor]: Asking for his opinion based upon what he observed.
THE COURT: I’m going to overrule the objection. You can answer.
6

!

No. 36645-6-III
State v. Giblin

that Mr. Eteuati’s statements “go[ ] to his state of mind,” and since he made “fairly clear
statements” about what he “honestly believ[ed]” “that’s monumental to the issues in this
case and Mr. Giblin’s defense and his right to a fair trial.” RP at 134.
The trial court granted the motion to exclude Mr. Eteuati’s statements about Mr.
Giblin’s intent, explaining, “Not only does he lack any personal knowledge that could
inform him of that, I also think that would be an improper comment on the defendant’s
guilt and it invades the province of the jury.” RP at 135. The court told the parties it
would allow the defense to inquire whether Mr. Eteuati knew if Mr. Giblin looked in his
mirror or saw anything behind the BMW.
When Brian Loredo later testified, the State touched on the defense theory that Mr.
Giblin put his BMW in reverse accidentally, asking the following questions and getting
the following responses:
[Prosecutor:] Was there anything about the way or the manner in which the
car backed up that gave you any concern for it being out of control or inadvertent
or—
[Brian:] Well, it just kept going.
[Prosecutor:] What do you mean?
[Brian:] Um, well, you know, if you—I guess if somebody—to me there
was no question as far as the intent.
[Prosecutor]: Why do you say that?
[Defense Counsel]: I’m going to object, Your Honor. It’s a statement on
the ultimate issue.
[Prosecutor]: Asking for his opinion based upon what he observed.
THE COURT: I’m going to overrule the objection. You can answer.
6

No. 36645-6-III
State v. Giblin

[Prosecutor:] Based upon what you observed, why do you think that?
[Brian:] Because, you know, the car if you—let’s say somebody
accidentally puts a car reverse, you know, when you step on the gas, once
you realize—I’ve done it before. I’ve done it. In my car it’s weird because
the way the handle is, it’s not a shifter. I’ve done it several times in my car.
As soon as I’ve done that, I know to stop. But it just seemed that there was
no intent to stop. It just kept going and kept going and kept going until it
hit my car.
RP at 266-67.
Mr. Giblin’s teenaged son was called as the last witness in the State’s case and
provided testimony largely supportive of his father. In the defense case, Mr. Giblin
testified on his own behalf. The defense conceded that Mr. Giblin was guilty of failure to
remain at an accident but vigorously denied that he intentionally put his car in reverse or
intended to hit Abel.
The jury found Mr. Giblin guilty of first degree assault and failure to remain at the
scene of an accident.3 The court imposed a total sentence of 136 months, the high end of
the standard range for the assault count. Mr. Giblin appeals.
ANALYSIS
Mr. Giblin assigns error to the trial court’s exclusion of Mr. Eteuati’s opinion of
Mr. Giblin’s intent, and its overruling his objection to Brian Loredo’s opinion of his
intent. Among his arguments is that “[i]f the Court felt the opinion of Brian Loredo was

3 It also found him guilty of the lesser included charge of second degree assault,
■ which the court dismissed.
7

No. 36645-6-III
State v. Giblin

admissible ... it should have also admitted the opinion of Mr. Eteuati. . .. The Court
should have allowed either the opinion testimony of both Mr. Eteuati and Brian Loredo
or neither.” Br. of Appellant at 12.
Under ER 701, a lay witness may testify “in the form of opinion or inferences”
that are “rationally based on the perception of the witness” and “helpful to a clear
understanding of the witness’ testimony or the determination of a fact in issue.”
“Testimony in the form of an opinion or inferences otherwise admissible is not
objectionable because it embraces an ultimate issue to be decided by the trier of fact.”
ER 704. Nonetheless, “there are some areas that are clearly inappropriate for opinion
testimony in criminal trials.” State v. Montgomery, 163 Wn.2d 577, 591, 183 P.3d 267
(2008). “Among these are opinions, particularly expressions of personal belief, as to the
guilt of the defendant, the intent of the accused, or the veracity of witnesses.” Id. (citing
State v. Demery, 144 Wn.2d 753, 759, 30 P.3d 1278 (2001)). “[Tjestimony that is not a
direct comment on the defendant’s guilt or on the veracity of a witness, [which] is
otherwise helpful to the jury, and is based on inferences from the evidence is not
improper opinion testimony.” City of Seattle v. Heatley, 70 Wn. App. 573, 578, 854 P.2d
658 (1993).
A ruling on the admissibility of opinion evidence is reviewed for abuse of
discretion. Demery, 144 Wn.2d at 758. A trial court abuses its discretion when its ruling
is based on untenable grounds or reasons. State v. Quaale, 182 Wn.2d 191, 196-97, 340
8

No. 36645-6-III
State v. Giblin

P.3d 213 (2014). “Where reasonable persons could take differing views regarding the
propriety of the trial court’s actions, the trial court has not abused its discretion.”
Demery, 144 Wn.2d at 758.
It should go without saying that if one party is allowed to offer the lay opinion of a
witness on a particular issue, it does not follow that the other party is automatically
entitled to offer a conflicting lay opinion. The admissibility of each is determined under
the evidence rules. And here, the opinions of Mr. Eteuati and Brian Loredo involved
different issues. Mr. Loredo testified to his belief that Mr. Giblin was knowingly, not
accidentally, driving backward. He was not asked about nor did he express a view on the
specific intent element of first degree assault: whether Mr. Giblin “acted with intent to
inflict great bodily harm.” Clerk’s Papers at 132 (Instruction 9).
Specific intent is exactly what was addressed by the opinion of Mr. Eteuati that the
defense wished to offer. On the issue of whether Mr. Giblin knowingly drove in reverse,
Mr. Eteuati agreed with Mr. Loredo; in his recorded statement, he said, “I honestly
believe, sir, his intention was to hit the vehicle and drive off.” RP at 131. The different
opinion that the defense wished to offer was Mr. Eteuati’s opinion that, “I don’t think his
intention was to crush the guy.” RP at 132.
There was a lack of foundation for Mr. Eteuati’s opinion on the issue of Mr.
Giblin’s specific intent. “A witness may not testify to a matter unless evidence is
introduced sufficient to support a finding that the witness has personal knowledge of the
9

No. 36645-6-III
State v. Giblin

matter.” ER 602. When it comes to a lay witness’s opinions, ER 701 requires that they
be “rationally based on the perception of the witness.” And when an opinion relates to a
core element that the State must prove, there must be a substantial factual basis
supporting the opinion. State v. Farr-Lenzini, 93 Wn. App. 453, 463, 970 P.2d 313
(1999). Mr. Eteuati was driving on an interstate highway, at the speed limit, when he'
witnessed a sudden collision. He could not articulate anything he observed that provided
a basis for his belief that Mr. Giblin did not intend to hit Abel. Frankly, the trial court
would have abused its discretion had it admitted Mr. Eteuati’s opinion as to Mr. Giblin’s
specific intent.4
There was no abuse of discretion in overruling the objection to Brian Loredo’s
testimony. Brian was in the immediate vicinity of the collision and articulated a rational
basis for his belief, based on what he observed, that Mr. Giblin did not accidentally drive
backward. Whether or not Mr. Giblin knowingly drove backward was not an ultimate
fact but it was a clearly relevant fact, and it was reasonable for the court to allow opinion
testimony that would be helpful to a clear understanding of Brian’s observations. “The
fact that an opinion supports a finding of guilt. . . does not make the opinion improper.”
State v. Collins, 152 Wn. App. 429, 436, 216 P.3d 463 (2009).

4 On appeal, Mr. Giblin does not rely on his trial lawyer’s argument that Mr.
Eteuati’s opinion “goes to his state of mind.” RP at 134. Mr. Eteuati’s state of mind was
irrelevant.
10

No. 36645-6-III
State v, Giblin

No error or abuse of discretion is shown.
STATEMENT OF ADDITIONAL GROUNDS
In a pro se statement of additional grounds for review (SAG), Mr. Giblin raises
nine. RAP 10.10 permits a defendant to identify and discuss matters related to the
decision under review that he or she believes have not been adequately addressed by the
brief filed by counsel.
We generally will not review errors that are raised for the first time on appeal.
RAP 2.5(a). We will not consider contentions in an SAG that do not inform us of the
nature and occurrence of alleged errors. RAP 10.10(c). We are not obligated to search
the record in support of claims made in an SAG. Id. Only documents that are contained
in the record on review should be relied on. Id. Issues that involve facts or evidence not
in the record are properly raised through a personal restraint petition (PRP), not an SAG.
State v. Calvin, 176 Wn. App. 1, 26, 316 P.3d 496 (2013).
With that introduction, we turn to the additional grounds raised by Mr. Giblin.
Concealment and suppression of evidence. Mr. Giblin contends the State
concealed and suppressed evidence that Abel was actively on probation for driving under
the influence and that Brian had violated parole, was actively on probation, and did not
have valid insurance at the time Mr. Giblin struck his vehicle. Mr. Giblin argues that
these are crimes of dishonesty that call into question the Loredo brothers’ credibility.

11

No. 36645-6-m
State v. Giblin

Our rules of evidence govern the admissibility of evidence of a witness’s
character, prior bad acts, and credibility. See ER 404, 405, 608, 609. Mr. Giblin
identifies no basis under which the matters he identifies would have been admissible at
trial. If some of the matters he identifies should have been disclosed under CrR 4.7—and
he does not show that they should have been—he does not identify that their
nondisclosure caused any harm.
The record reveals that the State did disclose a couple of prior convictions of the
Loredo brothers and uncertainty as to whether there might be another. The convictions or
possible convictions either were not admissible under the evidence rules, or the defense
never presented the proof required to admit them.
Ineffective assistance of counsel. Mr. Giblin contends he received ineffective
assistance of counsel because his trial lawyer failed to seek out and present additional
evidence that would have benefited his defense, failed to adequately and aggressively
cross-examine the State’s witnesses, failed to adequately prepare for trial, failed to
discuss and review the charges with Mr. Giblin, failed to pursue a plea bargain, and failed
to inform Mr. Giblin that he could terminate the lawyer’s representation.
To demonstrate ineffective assistance of counsel, a defendant must show two
things: “(1) defense counsel’s representation was deficient, i.e., it fell below an objective
standard of reasonableness based on consideration of all the circumstances; and (2)
defense counsel’s deficient representation prejudiced the defendant, i.e., there is a
12

No. 36645-6-III
State v. Giblin

reasonable probability that, except for counsel’s unprofessional errors, the result of the
proceeding would have been different.” State v. McFarland, 127 Wn.2d 322, 334-35,
899 P.2d 1251 (1995). Complaints about performance cannot be entertained if the
lawyer’s conduct “can be characterized as legitimate trial strategy or tactics.” State v.
McNeal, 145 Wn.2d 352, 362, 37 P.3d 280 (2002).
We will not review the contention that Mr. Giblin’s lawyer failed to adequately
and aggressively cross-examine witnesses because he fails to identify where in the record
the deficient cross-examination allegedly occurred. All of his other complaints depend
on facts outside our record and are susceptible to relief only through a PRP, supported by
relevant evidence.
Witness coercion and tampering. Mr. Giblin contends that Jeannette Bowers, a
witness for the State, was coerced, tampered with, and coached; he bases his belief on the
level of detail in her trial testimony, which he claims went beyond that included in her
written statements. He also contends the State provided her with statements from his
interview that she testified about as her own. Neither Ms. Bowers’s written statement nor
Mr. Giblin’s interview are included in the record on appeal^ If Mr. Giblin believes he can
demonstrate misconduct on the part of the State that would entitle him to relief, he must
seek it through a PRP, supported by evidence.
Judicial bias. Mr. Giblin asserts the trial judge sustained numerous objections by
the State and prohibited ER 404(b) evidence damaging to the Loredo brothers. Because
13

No. 36645-6-III
State v. Giblin

he fails to identify the objections he contends were wrongly sustained and fails to provide
any authority or argument why the court’s ruling on those objections and ER 404 issues
were in error, he is not entitled to review. And see In re Pers. Restraint ofDavis, 152
Wn.2d 647,-692, 101 P.3d 1 (2004) (“Judicial rulings alone almost never constitute.^
valid showing of bias.”).
Intent evidence and intent as argued by the State. Mr. Giblin challenges the
admissibility of intent evidence presented by the State, based on Beck v. Dye, 200 Wash.
1, 92 P. 1113 (1939). Beck addresses the excited utterance exception to the hearsay rule
and the fact that one requirement for an excited utterance is that it be a statement of fact,
not opinion. The case has no apparent application to this case. Additionally, Mr. Giblin
does not identify the specific evidence offered by the State that he challenges, as required
by RAP 10.10(c).
Statements by Abel’s girlfriend. Mr. Giblin contends that when Abel was
interviewed by police, his girlfriend improperly responded to questions directed to Abel
and expressed her opinion. While Mr. Giblin is not required to provide citation to
authorities, he is required to identify the nature of an alleged error. RAP 10.10(c). Even
if Abel’s girlfriend’s actions interfered with the interview Mr. Giblin provides no reason
why this would be error entitling him to relief.
Failure to interview Mr. Giblin or his son. Mr. Giblin complains that the
Washington State Patrol failed to interview him or his son before a declaration of
14

No. 36645-6-III
State v. Gib lin

probable cause was prepared by the Pierce County prosecutor’s office. .Here too, Mr.
Giblin provides no reason why the Washington State Patrol’s choice not to interview him
or his son would be error or entitle him to relief.
Offender score. Mr. Giblin argues that as a first time offender, his offender score
should have been 0. The determination of an offender score can take into consideration
both prior and current convictions. Mr. Giblin was sentenced for two current offenses, so
each counted as 1 point toward the other. See RCW 9.94A.589(l)(a). There was no
error.
Affirmed.
A majority of the panel has determined this opinion will not be printed in the
Washington Appellate Reports, but it will be filed for public record pursuant to RCW
2.06.040.

Siddoway, J.
WE CONCUR:

orsmo, J.

4

Fearing, J.

15

